I

No.

In the
Supreme Court of the United States

ANTWAN LAMAR HUTCHINSON
Petitioner
v.
UNITED STATES OF AMERICA
Respondent

ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
1.

Pursuant to Sup. Ct. R. 39.1, Petitioner Antwan Hutchinson asks for leave by this

court to proceed in forma pauperis in this matter, and to file his petition for certiorari without
payment of costs.
2.

Petitioner was previously granted leave to proceed in forma pauperis in the U.S.

District Court for the Southern District of Ohio, and thereafter in the Sixth Circuit.
3.

Petitioner proceeded in the district court and in the Sixth Circuit with court-

appointed counsel appointed pursuant to 18 U.S.C. ยง 3006A(d)(7).

1

I

*

WHEREFORE PREMISES CONSIDERED, the Petitioner Antwan Hutchinson, by
and through undersigned counsel, respectfully requests he be allowed to proceed in forma
pauperis without payment of filing fees or service of notice fees.

Dated: March 17,2021
Respectfully Submitted,
/

ยฃ

"A

MATTHEW C. GUlOTTA
The Gulotta Firm, PLLC
202 Adams Avenue
Memphis, TN 38103
(901)213-6648 ,
matt@gulottalaw.net
CJA Appointed Counsel
ofRecordfor Petitioner

^STEVEN WILSON
The Steve Wilson Firm
5100 Poplar Avenue, Ste 2700
Memphis, TN 38137
(901) 337-1300
steve@stevewi 1 sonfirm. com
Counsel for Petitioner

2

